TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Invoice Audit of the Financial
                      Statement/Government Accountability
                          Office Audit Support Services
                          Contract – TIRNO-00-D-00022



                                           June 22, 2009

                              Reference Number 2009-10-088




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            July 22, 2009


 MEMORANDUM FOR ACTING CHIEF, AGENCY-WIDE SHARED SERVICES


 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Invoice Audit of the Financial
                             Statement/Government Accountability Office Audit Support Services
                             Contract TIRNO-00-D-00022 (Audit # 200910022)

 This report presents the results of our invoice review of Financial Statement/Government
 Accountability Office Audit Support Services Contract TIRNO-00-D-00022. The overall
 objective of this review was to examine the investigative file for contract TIRNO-00-D-00022
 and report any questionable charges identified during the investigation to the Internal Revenue
 Service (IRS). We initiated this audit at the request of the Treasury Inspector General for Tax
 Administration (TIGTA) Office of Investigations to determine whether the vouchers submitted
 by the contractor and paid by the IRS were accurate, supported, and allowable. This review was
 part of the TIGTA Fiscal Year 2006 Annual Audit Plan risk-based coverage under the major
 management challenge of Erroneous and Improper Payments. The audit was suspended from
 2006 through early 2009 to allow the TIGTA Office of Investigations time to complete its
 investigation.

 Impact on the Taxpayer
 Contract expenditures represent a significant outlay of IRS funds. The TIGTA has made a
 commitment to perform audits of these expenditures. To the extent our reviews assist the IRS in
 identifying and recovering inaccurate, unsupported, and unallowable charges, contract
 expenditures are reduced and taxpayer funds are not spent inappropriately.
                           Invoice Audit of the Financial Statement/Government
                           Accountability Office Audit Support Services Contract
                                             TIRNO-00-D-00022



Synopsis
Our review identified questionable charges totaling $781,539.32 of the approximately
$1.24 million audited. The questionable charges consisted of unsupported employee direct labor
costs, subcontractor direct labor costs, or subcontractor travel costs. We provided details of
these charges to the TIGTA Office of Investigations as part of its review of ITS Services, Inc.
We have also provided the details of these charges to the IRS Office of Procurement.
We reviewed the investigative file and the supporting documentation of the contractor’s records
obtained by a subpoena issued by the TIGTA Office of Investigations. The IRS paid the
contractor a total of $5,249,111.36 for 150 invoices submitted between March 2001 and
July 2006. The primary expenses claimed by the contractor consisted of labor costs and travel
costs. We selected a random sample of 18 invoices totaling $1,237,480.37 (24 percent) of the
total expenses represented by the invoices.
The Federal Acquisition Regulation1 stipulates that a contractor is responsible for accounting for
costs appropriately and for maintaining records, including supporting documentation, adequate to
demonstrate that costs claimed have been incurred and that costs shall be allowed to the extent
they are reasonable, allocable, and allowable.2 Both the employee and subcontractor direct labor
charges were considered questionable because the subpoenaed records did not provide the
necessary documentation to support that the charges were accurate and allocable to the contract
(no employee/subcontractor time cards/reports).
The Federal Travel Regulation3 requires that airline, lodging, and car rental receipts be provided
and that reimbursement be based on the actual cost not to exceed the per diem rate or other
required cost limitation policies. The travel charges were considered questionable because there
were 1) no receipts provided to support such items as airfare, lodging, mileage, and car rental
charges and 2) instances of the contractor exceeding the standard rate allowable for per diem.
We believe the identification of a significant amount of unsupported labor charges, which
represented the majority of our questioned costs, was directly related to the IRS’ incomplete
invoice verification process.

Recommendation
We recommended the Director, Procurement, ensure that the responsible Contracting Officer
reviews the identified questionable charges of $781,539.32 and initiates any recovery actions
deemed warranted.

1
  48 C.F.R. pt. 1-53 (2002).
2
  For definitions of these terms, see page 3 of the report.
3
  41 C.F.R. Chapter 301 (2005).
                                                                                                  2
                     Invoice Audit of the Financial Statement/Government
                     Accountability Office Audit Support Services Contract
                                       TIRNO-00-D-00022



Response
IRS management agreed with our recommendation. The Contracting Officer is working with the
contractor to obtain any additional documentation. The Contracting Officer will review any
additional supporting documentation provided, determine the amount of any recoverable costs,
and initiate the appropriate action to recover those costs. Management’s complete response to
the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations), at (202) 622-8500.




                                                                                            3
                              Invoice Audit of the Financial Statement/Government
                              Accountability Office Audit Support Services Contract
                                                TIRNO-00-D-00022




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Questionable Contract Charges of $781,539.32 Were Identified .................Page 2
                    Recommendation 1:..........................................................Page 4


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 5
          Appendix II – Major Contributors to This Report ........................................Page 7
          Appendix III – Report Distribution List .......................................................Page 8
          Appendix IV – Outcome Measure ................................................................Page 9
          Appendix V – Management’s Response to the Draft Report .......................Page 10
        Invoice Audit of the Financial Statement/Government
        Accountability Office Audit Support Services Contract
                          TIRNO-00-D-00022




                   Abbreviations

COTR          Contracting Officer’s Technical Representative
IRS           Internal Revenue Service
TIGTA         Treasury Inspector General for Tax Administration
                           Invoice Audit of the Financial Statement/Government
                           Accountability Office Audit Support Services Contract
                                             TIRNO-00-D-00022




                                               Background

In June 2000, the Internal Revenue Service (IRS) awarded contract number TIRNO-00-D-00022,
a cost-plus-fixed-fee contract to assist the IRS in complying with the Chief Financial Officers
Act.1 The contractor provided professional financial and accounting services to assist the IRS in
preparing its annual financial statements and in the resolution of material weaknesses and other
issues identified in audits of those financial statements. The contract was awarded for a base
period from July 7, 2000, through May 31, 2001. The contract included options that extended
the term of the contract through May 31, 2005.
The Federal Acquisition Regulation2 stipulates that a contractor is responsible for accounting for
costs appropriately and for maintaining records, including supporting documentation, adequate to
demonstrate that costs claimed have been incurred. The Federal Travel Regulation3 requires that
airline, lodging, and car rental receipts be provided and that reimbursement be based on the
actual cost not to exceed the per diem rate or other required cost limitation policies.
This audit was performed at the Office of Procurement in the Office of Agency-Wide Shared
Services in Oxon Hill, Maryland, during Fiscal Year 2006. Audit work was suspended that same
year to allow the Treasury Inspector General for Tax Administration (TIGTA) Office of
Investigations staff to complete their review. Audit work was resumed in January 2009 and
concluded in March 2009. The audit team reviewed the contractor’s subpoenaed records for the
period July 2003 through September 2005 maintained by the TIGTA Office of Investigations in
Washington, D.C. Opinions expressed in this report pertain only to invoices included in our
sample. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.



1
  The Chief Financial Officers Act of 1990 (Pub. L. No. 101-576, 104 Stat. 2838 [codified as amended in scattered
sections of 5 U.S.C., 31 U.S.C., and 42 U.S.C.]) requires Federal agencies to develop auditable financial statements
and to present these statements in an annual financial report. The Government Accountability Office audits the IRS’
financial statements each fiscal year. These financial statements report the assets, liabilities, net position, net costs,
changes in net position, budgetary resources, reconciliation of net costs to budgetary obligations, and custodial
activity related to the IRS’ administration of its responsibilities for implementing Federal tax legislation.
2
  48 C.F.R. pt. 1-53 (2002).
3
  41 C.F.R. Chapter 301 (2005).
                                                                                                                 Page 1
                            Invoice Audit of the Financial Statement/Government
                            Accountability Office Audit Support Services Contract
                                              TIRNO-00-D-00022




                                        Results of Review

Questionable Contract Charges of $781,539.32 Were Identified
According to the IRS’ Request Tracking System,4 the IRS awarded $5,344,152.53 for this
contract as of September 11, 2006. A total of $5,249,111.36 was paid by the IRS to the
contractor for 150 invoices submitted between March 2001 and July 2006. The primary
expenses claimed by the contractor consisted of labor costs and travel costs. Of the 150 invoices,
we selected a random sample of 18 (12 percent) totaling $1,237,480.37 (24 percent of the total
paid contract expenses).
We reviewed the TIGTA Office of Investigations’ investigative file and also reviewed the
supporting documentation of the contractor’s records, obtained as a result of a subpoena issued
by the Office of Investigations. Our examination of the documents provided by the contractor
determined that there were questionable contract charges totaling $781,539.32 (see Figure 1) of
the approximately $1.24 million audited relating to those 18 invoices. All of the questionable
charges consisted of unsupported employee direct5 labor costs, subcontractor direct labor costs,
or subcontractor travel costs.
We provided details of these charges to the TIGTA Office of Investigations in October 2007 as
part of its ongoing investigation of the contractor, ITS Services, Inc. We also provided the
results of this review to the IRS Office of Procurement in February 2009.
                            Figure 1: Schedule of Questionable Charges

                             Employee               Subcontractor           Subcontractor
                            Direct Labor             Direct Labor              Travel                  Total
    Direct Costs                $331,850.04                $173,576.81              $ 9,243.74       $514,670.59
    Indirect Costs              $243,652.08                 $ 22,186.38             $ 1,030.27       $266,868.73
    Total                       $575,502.12                $195,763.19             $10,274.01        $781,539.32
    Source: TIGTA analysis of 18 sample invoices submitted to the IRS.




4
  The Request Tracking System is a web-based application that allows IRS personnel to prepare, approve, fund, and
track requests for the delivery of goods and services. The System also allows for electronic receipt and acceptance
of items delivered and provides an interface with the Integrated Financial System (the IRS financial accounting
system) for payment processing.
5
  The amount of labor actually charged absent of indirect labor charges.
                                                                                                            Page 2
                          Invoice Audit of the Financial Statement/Government
                          Accountability Office Audit Support Services Contract
                                            TIRNO-00-D-00022



The Federal Acquisition Regulation stipulates that a contractor is responsible for accounting for
costs appropriately and for maintaining records, including supporting documentation, adequate to
demonstrate that costs claimed have been incurred and that costs shall be allowed to the extent
they are reasonable,6 allocable,7 and allowable.8 It further states, “The contractor shall
substantiate vouchers by evidence of actual payment and by individual daily job timecards, or
other substantiation approved by the Contracting Officer.”9
Prior to April 28, 2004, the Department of the Treasury Contracting Officer’s Technical
Representatives (COTR) Handbook was the primary guidance for the COTRs.10 Part IV of the
Handbook stated that the COTRs are responsible for reviewing and approving invoices and
vouchers on contracts. It also stated that the COTRs will receive instructions regarding
involvement in the review and approval of invoices and vouchers from the Contracting Officer.
Attachment E of the Handbook also offered, as a sample responsibility for time-and-materials
contracts, that the COTRs are responsible for reviewing and signing off on the invoices to attest
to their accuracy. Ten of the 18 invoices we reviewed during this audit were subject to this
guidance.
On April 28, 2004, the IRS replaced the Handbook guidance, in part, with a reference to the
Office of Federal Procurement Policy document, A Guide to Best Practices for Contract
Administration (the Guide), published in October 1994. The Guide offers, as a practical
technique, that those COTRs reviewing vouchers under cost-reimbursement contracts should
review, among other things, contractor timecards to help assess the reasonableness of direct labor
costs. It also contains directions to review major cost categories such as travel, supplies, other
direct costs, and subcontractor costs to again determine the reasonableness of the claimed costs.
Although the Guide does not include a specific reference to labor-hour contracts, we believe it is
reasonable to infer that administration requirements for cost-reimbursement contracts would also
apply to labor-hour contracts.
The Federal Travel Regulation requires that airline, lodging, and car rental receipts be provided
and that reimbursement be based on the actual cost not to exceed the per diem rate or other
required cost limitation policies. Additionally, the Federal Travel Regulation requires that any
travel expenses in excess of $75 must be supported by a receipt when claimed on a travel
voucher.



6
  A cost is accepted as reasonable if, by its nature and amount, it does not exceed that which would be incurred by a
prudent person in the conduct of a competitive business.
7
  Costs that are assignable or chargeable to one or more cost objectives on the contract.
8
  Costs that are reasonable, allocable, conform to the standards of the Cost Accounting Board, meet with the terms
of the contract, and are pursuant to any limitations specified in Federal Acquisition Regulation 31.2.
9
  Federal Acquisition Regulation 52.232-7(a) (1), Payments Under Time-and-Materials and Labor-Hour Contracts.
10
   Department of the Treasury Acquisition Circular No. 02-01, dated April 28, 2004, deleted references to the
COTR Handbook. The Circular also stated the Department of the Treasury would no longer maintain the Handbook.
                                                                                                             Page 3
                      Invoice Audit of the Financial Statement/Government
                      Accountability Office Audit Support Services Contract
                                        TIRNO-00-D-00022



Both the employee and subcontractor direct labor charges were considered questionable because
the subpoenaed records did not provide the necessary documentation to support that the charges
were accurate and allocable to the contract (no employee and/or subcontractor time cards or time
reports were documented). The travel charges were considered questionable because there were
1) no receipts provided to support such items as airfare, lodging, mileage, and car rental charges
and 2) instances of the contractor exceeding the standard rate allowable for per diem.
We believe the identification of a significant amount of unsupported labor charges, which
represented the majority of our questioned costs, was directly related to the incomplete invoice
verification process described above. We conclude that if the IRS was periodically or routinely
requiring the contractor to provide such documentation when the invoices were submitted, the
contractor would have been more likely to comply. In 2007, the IRS strengthened its invoice
verification procedures. These new procedures, if used consistently by contracting officers and
their technical representatives, should minimize or prevent the payment of unsupported,
unallowable, and inaccurate charges which will reduce contract expenditures and ensure taxpayer
funds are not spent inappropriately.

Recommendation
Recommendation 1: The Director, Procurement, should ensure that the responsible
Contracting Officer reviews the identified questionable charges of $781,539.32 and initiates any
recovery actions deemed warranted.
       Management’s Response: The Contracting Officer is working closely with the
       contractor to obtain additional documentation. Upon receipt of the supporting
       documentation, the Contracting Officer will conduct a thorough analysis, determine the
       amount of any recoverable costs, and initiate the appropriate action to recover those
       costs.




                                                                                           Page 4
                          Invoice Audit of the Financial Statement/Government
                          Accountability Office Audit Support Services Contract
                                            TIRNO-00-D-00022



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to review the TIGTA Office of Investigations’
investigative file for contract TIRNO-00-D-00022 and report the questionable charges identified
during the investigation to the IRS. To accomplish this objective, we:
I.      Reviewed the investigative file (which included the records/documents subpoenaed from
        the contractor) for:
        A. A listing of all approved invoices and corresponding task orders (if applicable) from
           the IRS Request Tracking System.1 Establishment of this list was the first step in our
           overall invoice analysis process as it identified the universe of invoices for audit
           sampling.
        B. Using these files, we developed a plan for outlining the method to select a sample of
           invoices for review, e.g., high ten, unusual items, random sample.
        C. The actual amount paid to the contractor, the actual invoices and all supporting
           documentation from the contractor, and the analysis conducted to:
             1. Verify the mathematical accuracy of each invoice and any supporting
                documentation.
             2. Trace all invoice charges to supporting documentation.
                 a. Support for labor charges should include documentation for such things as
                    substantiation for labor category, labor rate, and hours recorded. We were
                    alert to the extent of the use of “Key Personnel” as stipulated in the contract.
                 b. Support for travel charges should include approved travel authorizations and
                    invoices (using appropriate per diem rates if applicable) and original
                    documentation to support such expenses as transportation, hotel, and other
                    expenses meeting the threshold for such documentation.
                 c. Support for charges other than labor and travel should include approved
                    invoices for payment or some other documentation that would evidence the
                    actual acquisition of the items being charged. We paid particular attention to



1
  The Request Tracking System is a web-based application that allows IRS personnel to prepare, approve, fund, and
track requests for the delivery of goods and services. The System also allows for electronic receipt and acceptance
of items delivered and provides an interface with the Integrated Financial System (the IRS financial accounting
system) for payment processing.
                                                                                                            Page 5
                          Invoice Audit of the Financial Statement/Government
                          Accountability Office Audit Support Services Contract
                                            TIRNO-00-D-00022



                      subcontract charges. NOTE: The reasonableness of all direct charges should
                      be considered on a negative assurance2 basis.
                 d. Overhead and General Administration charges should be verifiable to Defense
                    Contract Audit Agency3 established rates for the contractor or as stipulated in
                    the contract.
                 e. Fee charges, if award or incentive, should be based on evaluation criteria
                    provided for in the contract, interim evaluations, and any associated
                    documentation that supports the payment of the fee. Fee charges, if fixed,
                    should not exceed the statutory requirements as established in Federal
                    Acquisition Regulation 15.404-4 (C) (4) (i).
           3. Verify, to the extent necessary, that all invoice charges were actually paid by the
              contractor through payroll records or extracts from the contractor’s financial
              records. We paid particular attention to subcontract charges.
           4. Verify that all invoice charges are allowable under the terms and conditions of the
              contract (consult the Federal Acquisition Regulation if necessary).
II.     Reported indentified questionable charges to the IRS.
        A. Provided the IRS with a copy of the questionable charges, requesting comments and
           additional documentation.
        B. Reviewed any additional documentation provided by the IRS and made changes to
           questionable charges as necessary.




2
  Negative assurance tells the data user that nothing has come to the auditor’s attention of an adverse nature or
character regarding the data reviewed.
3
  The Defense Contract Audit Agency, under the authority, direction, and control of the Under Secretary of Defense
(Comptroller), is responsible for performing all contract audits for the Department of Defense. It also provides
contract audit services to some other Federal Government agencies.
                                                                                                           Page 6
                    Invoice Audit of the Financial Statement/Government
                    Accountability Office Audit Support Services Contract
                                      TIRNO-00-D-00022



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia P. Mrozowski, Director
Thomas J. Brunetto, Audit Manager
Mildred Rita Woody, Audit Manager
Terrey A. Haley, Lead Auditor
Richard E. Louden, Lead Auditor
James S. Mills, Senior Auditor
Tina M. Augustine, Auditor
Niurka M. Thomas, Auditor




                                                                                   Page 7
                    Invoice Audit of the Financial Statement/Government
                    Accountability Office Audit Support Services Contract
                                      TIRNO-00-D-00022



                                                                  Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Director, Procurement OS:A:P




                                                                            Page 8
                      Invoice Audit of the Financial Statement/Government
                      Accountability Office Audit Support Services Contract
                                        TIRNO-00-D-00022



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Questioned Costs – Potential; $781,539.32 (see page 2).

Methodology Used to Measure the Reported Benefit:
We reviewed the TIGTA’s Office of Investigations’ investigative file and supporting contractor
documentation obtained from the IRS Office of Procurement, as well as documentation received
directly from the Office of Investigations via a subpoena, to verify charges for a random sample
of 18 invoices. We selected our sample from a universe of 150 invoices totaling $5,249,111.36
in transactions processed by the IRS. The 18 invoices involved totaled $1,237,480.37 in IRS
payments.
Our review resulted in the identification of questionable charges of $781,539.32. Specifically,
these charges consisted of $771,265.31 in unsupported labor charges and $10,274.01 in
unsupported travel charges.




                                                                                           Page 9
      Invoice Audit of the Financial Statement/Government
      Accountability Office Audit Support Services Contract
                        TIRNO-00-D-00022



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 10
Invoice Audit of the Financial Statement/Government
Accountability Office Audit Support Services Contract
                  TIRNO-00-D-00022




                                                    Page 11
